DEPARTMENT OF HOMELAND SECURITY
The Background Check Analysis Units

       Office of Inspector General    0




         Survey of DHS Intelligence Collection
                  and Dissemination
                (Unclassified Summary)




OIG-07-49                                 June 2007
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                            June 5, 2007

                                               Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report surveys DHS intelligence collection and dissemination activities and capabilities,
primarily outside the Washington, DC metropolitan area. It is based on interviews with employees
and officials of relevant agencies and institutions, direct observations, and a review of applicable
documents.

The issues identified herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner
                                             Inspector General
OIG
Department of Homeland Security
Office of Inspector General

Introduction
                              We surveyed the operational components of the Department of Homeland
                              Security (DHS) Intelligence Enterprise to determine their respective missions,
                              roles, responsibilities, and information sharing capabilities. Our specific focus
                              was on the program and organizational components that produce raw information,
                              intelligence-related information, or finished intelligence products.

                              The objectives of our survey were to (1) identify the activities within DHS that
                              generate or disseminate intelligence-related information and each activity’s
                              mission, function, and capabilities; (2) determine the sources of information
                              collected or obtained by the DHS intelligence enterprise activities, and how the
                              information is collected or obtained; (3) determine the customers of DHS
                              intelligence enterprise activities, and how products are disseminated; (4)
                              determine how priority intelligence requirements are generated, and how they are
                              tasked to DHS and non-DHS intelligence enterprise activities; and (5) identify
                              issues for management action stemming from our survey of the DHS field
                              intelligence enterprise. We conducted our fieldwork from November 2005
                              through January 2007, under the authority of the Inspector General Act of 1978,
                              as amended, and according to the Quality Standards for Inspections issued by the
                              President’s Council on Integrity and Efficiency.

Background
                              The Homeland Security Act of 2002 created DHS and intended the
                              intelligence component of the department to be the focal point for all
                              terrorism-related intelligence to protect the Nation.1 The legislation
                              specifically assigned primary responsibility to DHS for receiving and
                              analyzing all available intelligence that contributes to understanding the
                              nature and scope of the terrorist threat to the American homeland and to detect
                              and identify potential threats of terrorism within the United States. The
                              Homeland Security Act of 2002 also tasked DHS with developing policies and
                              procedures to govern the sharing of law enforcement and intelligence
                              information relating to homeland security within the federal government and
                              state and local governments.


1
    6 U.S.C. § 101, et seq.


                        Survey of DHS Intelligence Collection and Dissemination (Unclassified Summary)
                                                             Page 1
                         Since the enactment of the Homeland Security Act of 2002, reports by such
                         agencies as DHS’ Office of Inspector, the Government Accountability Office
                         and Congressional legislation have identified the need for DHS to assume a
                         greater role in integrating, coordinating, and sharing homeland security related
                         information. The 9/11 Commission determined that the largest obstacle to
                         “connecting the dots” was resistance within the federal government to
                         information sharing.2 As a result, the Intelligence Reform and Terrorism
                         Prevention Act of 2004 mandated the creation of a new information-sharing
                         environment. The new act sought to lessen the resistance to sharing terrorism
                         and homeland security intelligence among federal government agencies, and
                         with state, local, and private sector entities.3

                         In early 2005, the DHS Secretary commissioned the Second Stage Review to
                         identify issues and opportunities for improvement within the department.
                         This review recommended changes to bolster DHS’ intelligence and
                         information sharing environment. The Second Stage Review Information and
                         Intelligence Sharing Team noted that the department’s intelligence
                         components were not integrated. It observed that these components contained
                         multiple points of collection without coordination of intelligence and
                         information sharing standards or processes. The Second Stage Review further
                         stated that DHS’ intelligence and operational components were not meeting
                         the needs of its stakeholders, which include other DHS components, the
                         Intelligence Community and state, local, and private sector entities.

                         In response to the Second Stage Review findings, the Secretary reorganized
                         the department-level intelligence components by creating the DHS Office of
                         Intelligence and Analysis, led by the Chief Intelligence Officer for DHS. The
                         Office of Intelligence and Analysis’ role is to gather information from all field
                         operations and other parts of the Intelligence Community; analyze it for
                         homeland security implications; and appropriately disseminate it to
                         policymakers, DHS components, and federal, state, and local partners. The
                         Office of Intelligence and Analysis is also responsible for coordinating and
                         integrating intelligence-related policies, plans, and procedures, and
                         establishing department-level intelligence requirements.

                         Our analysis of the Second Stage Review indicated the reorganization
                         recommendations focused on intelligence operations at the department level,
                         and the implementation plan focused on intelligence requirements, collection,
                         analysis and fusion at the strategic level. In addition, the Second Stage
                         Review did not address the blurring definition of “intelligence” within the
                         department. DHS elements that are part of the Intelligence Community detect

2
  The Final Report of the National Commission on Terrorist Attacks Upon the United States (The 9/11 Commission
Report), pg. 416.
3
  50 U.S.C. § 401, et seq.


                    Survey of DHS Intelligence Collection and Dissemination (Unclassified Summary)
                                                         Page 2
                                and analyze threats to the national security of the United States, while other
                                intelligence organizations in the department collect information and develop
                                analytical products to aid in the capture of prospective or practicing
                                criminals.4 Until these activities are differentiated and “intelligence”
                                explicitly defined, the department will face challenges in determining what
                                activities and organizations should be integrated.

                                The DHS Chief Intelligence Officer has observed that the multiple points of
                                collection in the department reside within DHS component intelligence
                                offices, as well as within the operations of Border Patrol agents, and Custom
                                and Border Protection officers, criminal investigators, airport screeners, and
                                immigration benefits adjudicators. The Office of Intelligence and Analysis
                                developed an overarching vision and strategy for DHS intelligence activities
                                when it released the DHS Intelligence Enterprise Strategic Plan (Plan) in
                                January 2006. The Plan defined the DHS Intelligence Enterprise to include all
                                component organizations within the department that have activities producing
                                raw information, intelligence-related information, or finished intelligence.

                                The Plan signaled a commitment to integrate the intelligence capabilities of
                                the department, but did not specify the component organizations that should
                                be integrated. The Chief Intelligence Officer has testified before Congress
                                that he faces challenges in integrating and coordinating the myriad operational
                                and intelligence-related activities that make up the DHS Intelligence
                                Enterprise.5

                                It is our hope that this survey will assist the Chief Intelligence Officer and
                                other DHS leaders to confront these challenges by providing detailed
                                information about intelligence-related activities in DHS’ field operational
                                units, and identifying several areas where DHS management should take
                                action.




4
  Departments and agencies cooperating to fulfill the goals of Executive Order 12333 constitute the U.S. Intelligence Community. Executive Order
12333 provides guidelines for the conduct of U.S. intelligence activities.
5
  Chief Intelligence Officer Charles Allen, Written Statement to the House Committee on Homeland Security Subcommittee on Intelligence,
Information Sharing, and Terrorism Risk Assessment (October 19, 2005).
                          Survey of DHS Intelligence Collection and Dissemination (Unclassified Summary)
                                                               Page 3
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at (202)
254-4100, fax your request to (202) 254-4285, or visit the OIG web site at www.dhs.gov./oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
misconduct relative to department programs or operations, call the OIG Hotline at 1-800-323-
8603; write to DHS Office of Inspector General/MAIL STOP 2600, Attention: Office of
Investigations – Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the compliant to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The OIG seeks to
protect the identity of each writer and caller.
